FEDERAL MOTOR CARRIER SAFETY
  ADMINISTRATION LACKS CORE
  ELEMENTS FOR A SUCCESSFUL
     ACQUISITION FUNCTION

  Federal Motor Carrier Safety Administration


         Report Number: ZA-2010-093
         Date Issued: August 24, 2010
           U.S. Department of
                                                                  Memorandum
           Transportation
           Office of the Secretary of Transportation
           Office of Inspector General


Subject:   ACTION: The Federal Motor Carrier Safety                                          Date:    August 24, 2010
           Administration Lacks Core Elements For A
           Successful Acquisition Function
           Report No ZA-2010-093

  From:    Terrence J. Letko                                                              Reply to
                                                                                          Attn. of:   JA-60
           Acting Assistant Inspector General for Acquisition
           and Procurement Audits

    To:    Administrator
           Federal Motor Carrier Safety Administration

           The Federal Motor Carrier Safety Administration (FMCSA) relies on the
           procurement of goods and services to achieve its primary mission of reducing
           crashes, injuries, and fatalities involving large trucks and buses. In fiscal year
           2009, FMCSA received a $234 million budget for its operations and programs to
           support its mission—$80 million or 34 percent of which was for the procurement
           of goods and services. 1 FMCSA also relies heavily on contract arrangements that
           place a high risk on the Agency because they tie the contractor's profit to the
           number of hours worked, thus imposing the risk of cost overruns on the
           Government. 2 FMCSA spends about 40 percent of its dollars on such contracts
           compared to about 5 percent Governmentwide. Given the magnitude of FMCSA's
           contracted goods and services to its mission success and its significant use of high-
           risk contracts, it is critical that its contract practices are effective to protect the
           Government's interest.

           We performed this audit at the request of FMCSA's former Administrator. 3 Our
           audit objectives were to determine whether FMCSA’s contract award and




           1
             These budgetary amounts exclude grants. FMCSA's total budget for fiscal year 2009 was $541 million.
           2
             These include Time and Materials and Labor Hour contracts, as defined in FAR Part 16.
           3
             In 2008, the former Administrator contracted with Grant Thornton, LLP to perform a review of FMCSA’s acquisition
              process; the contractor's findings prompted the former Administrator's request to the Department of Transportation’s
              Office of Inspector General to perform a follow-up audit.
                                                                                                                 2


administration practices comply with applicable laws and regulations. As a result,
we reviewed FMCSA’s (1) acquisition planning and competition of contracts,
(2) contract administration and oversight, and (3) acquisition infrastructure. Our
audit work included a review of 27 4 FMCSA contracts valued at $192 million
from a universe of contract actions reported between fiscal year 2005 and
January 12, 2009. 5 We conducted this audit in accordance with generally accepted
government auditing standards and believe the evidence we obtained provides a
reasonable basis for our findings and conclusions based on our audit objectives.
Exhibit A contains the details of our scope and methodology.

RESULTS IN BRIEF
FMCSA does not have adequate contract pre-award processes in place, leaving it
vulnerable to using ineffective business arrangements and ultimately hindering its
ability to maximize competition.         First, FMCSA's Office of Acquisition
Management (OAM) does not have internal controls to ensure that required
acquisition plans be used for all procurements over $2 million. 6 Second, FMCSA
is not properly completing determination and findings (D&F) to justify using
contract types that subject the Government to a greater degree of risk, such as
Time and Materials (T&M) and Labor Hour (LH) contracts. Third, FMCSA is not
documenting required independent government cost estimates (IGCE) 7 for its use
when negotiating prices with contractors. 8 Fourth, 10 contract files we reviewed
that required legal sufficiency reviews of both the solicitations and contract
awards lacked proof that such reviews were completed. Fifth, OAM is not
allowed adequate time to award a contract because FMCSA does not follow its
recommended procurement lead times for planning and awarding contracts, which
could greatly limit competition. Finally, FMCSA’s acquisition staff and program
offices are not performing adequate market research to identify qualified vendors,
limiting the possibility of achieving more favorable costs for FMCSA.

FMCSA lacks effective administration and oversight of its contracts to ensure it
meets the Agency's needs in the most efficient and economical manner.
Specifically, Contracting Officers (CO) maintained incomplete contract files and
documents with numerous administrative errors, and for four contracts, COs
provided their signature after the awards' effective date. In addition, FMCSA's

4
    We selected 28 contracts for review; however, FMCSA was unable to locate 1 of these 28 contracts. Therefore, we
    were able to review a total of only 27 contracts, which we refer to throughout the report.
5
    We selected the contracts from the Federal Procurement Database System-Next Generation (FPDS-NG)—the Federal
    tracking system for contracts with an estimated value of $3,000 or more. There was a universe of 410 contracts
    valued at $334 million, which included contracts awarded from fiscal years 1999 through 2009. However, the
    selected contracts had contract award dates from fiscal years 2002 through 2008.
6
    Transportation Acquisition Manual (TAM) Subchapter 1207.1 Acquisition Plans.
7
    A documented and supported estimate of the cost of the proposed project based on factors such as prior buying
    history, rates in similar contracts, and inflation indicators.
8
    TAM 1215.404-70 Independent Government Estimates.
                                                                                                                3


Contracting Officer's Technical Representatives (COTRs) have incomplete
contract files and do not follow a systematic approach for monitoring contracts,
such as using structured monitoring plans. Such systematic oversight is especially
important given FMCSA's high use of T&M/LH contracts. Finally, contract
oversight is further compromised by COTRs' lack of regular communication with
OAM, which has led to contrasting viewpoints regarding basic, yet key, contract
information required to help ensure desired contract outcomes.

FMCSA lacks the critical components needed for an effective acquisition function,
namely organizational alignment and leadership, policies and processes,
acquisition data, and human capital. Weaknesses in these areas contribute to
FMCSA's poor contracting practices. The Office of Management and Budget
(OMB) Guidelines and Federal internal control standards cite these components as
cornerstones for an effective acquisition function. 9 FMCSA's lack of emphasis on
improving these cornerstones is the primary cause of OAM's and the program
offices' continued use of high risk business arrangements, such as T&M/LH
contracts, not maximizing competition when awarding contracts, and inadequate
contract oversight.

Our report makes a number of recommendations for improving FMCSA’s
acquisition workforce deficiencies, policies and processes, and contract oversight
and therefore, better positioning its acquisition function to fulfill the Agency's
mission.

BACKGROUND
The Federal Acquisition Regulation (FAR) establishes uniform policies and
procedures for executive agencies to ensure their acquisition of supplies and
services are conducted with fairness and integrity, minimize administrative
operating costs, fulfill public policy objectives, and result in quality products and
services. The FAR also promotes the use of competition and fixed-price
contracts. 10   The Department of Transportation's (DOT) Transportation
Acquisition Regulation (TAR) and the Transportation Acquisition Manual (TAM)
implement and supplement FAR policies.

Recent Federal emphasis has been placed on the importance of sound acquisitions.
The President’s March 4, 2009, memorandum on government contracting
underscores agency use of competition and fixed-price contracts since they are the


9
   OMB Memorandum Conducting Acquisition Assessments under OMB Circular A-123, May 21, 2008, provides four
   cornerstones: (1) organization alignment and leadership, (2) policies and processes, (3) human capital, and (4)
   information management and stewardship.
10
   FAR 6.1 Full and Open Competition promotes competition, and FAR 16.1 Selecting Contract Types promotes fixed-
   price contracts.
                                                                                   4


least risky contract type to the Government. 11 Also, on July 29, 2009, OMB
issued a memorandum to the heads of executive departments and agencies to
heighten acquisition reform to improve the effectiveness of acquisition practices
and the results achieved from their contracts.

FMCSA’s OAM—one of three divisions in its Office of Administration—is
responsible for the Agency’s contract award and administration. In June 2008,
FMCSA hired a new Acting OAM Director (made permanent in November 2009)
to oversee and manage its acquisition function. OAM consists of Contracting
Officers, authorized to award, administer, and terminate contracts, and Contract
Specialists, who perform day-to-day contract activities. In addition, program
offices throughout FMCSA define contract requirements and prepare purchase
requests to send to OAM to acquire goods and services, which help to meet their
offices' strategic goals. Once the contract is awarded, a Contracting Officer's
Technical Representative is appointed as a representative of the program office
and is responsible for monitoring contractor performance. OAM and the program
offices are laterally aligned in FMCSA's organizational structure.

The total dollar value of FMCSA's contract actions between fiscal year 2005 and
January 12, 2009, was $334 million, which was distributed as follows:

• 45 percent were competitive awards, 35 percent were non-competitive awards,
  and the remaining 20 percent of the awards' extent of competition was not
  reported.

• 44 percent were T&M/LH-type contracts, 33 percent were fixed-price
  contracts, and the remaining 23 percent used another contract type.

INADEQUATE PLANNING PROCESSES LEAVE FMCSA
VULNERABLE TO USING INEFFECTIVE BUSINESS
ARRANGEMENTS AND ACHIEVING LIMITED COMPETITION
FMCSA awards contracts without adequately performing key pre-award processes
(see table 1 for FMCSA's specific acquisition pre-award weaknesses). For
instance, FMCSA does not prepare acquisition plans before awarding a contract.
Further, OAM does not adequately prepare D&Fs to justify using high risk
contract types, such as T&M/LH contracts. Contract files do not provide
documentation that IGCEs are prepared for negotiating fair and reasonable
contract costs. Also, contract files do not include required legal reviews, and there
is no process in place to ensure legal review comments are resolved before
awarding a contract. Additionally, FMCSA does not follow its specified
procurement lead times for planning and awarding contracts. Finally, FMCSA is
11
     Presidential Memorandum Government Contracting, dated March 4, 2009.
                                                                                                                   5


not performing adequate market research to identify qualified vendors and
appropriate products and services. The lack of these planning processes has
resulted in FMCSA's inability to promote and provide for full and open
competition in soliciting offers and awarding contracts.

Table 1. Summary of Acquisition Pre-award Requirements for Contracts
Reviewed

                                                      Pre-Award Requirements

       Measure            Acquisition        D&F         IGCE           Legal       Procurement         Market
                             Plan                                      Review        Lead Time         Research

Number of
contracts
required to
comply*                         19            21           27             10              27                12
Number and
percent of
noncompliant                    16            12           11            10               26                 5
contracts                     (84%)         (57%)        (41%)         (100%)           (96%)              (42%)
Value of
noncompliant
contracts
(in millions)                 $150           $55          $71            $75            $182               $69
Percentage of
noncompliant
contracts to
contract universe
valued at
$334 million                  45%            17%          21%            22%             55%               21%
* Out of 27 contracts reviewed, based upon applicable regulation or guidance.
Source: OIG analysis of sampled OAM contract files, based upon the contract value reported in FPDS as of
January 12, 2009.



Contracts are Awarded Without Adequate Acquisition Plans

FMCSA's acquisition planning is insufficient at both an agency-wide and
individual contract level, resulting in contracts being awarded without acquisition
planning being performed or documented. The FAR requires agencies to perform
procurement planning in order to promote competition and ensure that agency
needs are met in the most effective, economical, and timely manner. 12 Also,
FMCSA does not have internal controls nor is it held accountable to ensure
acquisition plans are developed for all procurements over $2 million, as required
by TAM. 13 In fact, 16 of 19 contracts we reviewed over $2 million, with a total
value of $150 million, did not contain an acquisition plan. FMCSA's lack of
12
     FAR 7.102 Acquisition Plans.
13
     Transportation Acquisition Manual (TAM) Subchapter 1207.1 Acquisition Plans.
                                                                                               6


planning has contributed to the use of high risk business arrangements and limited
competition.

Additionally, FMCSA's lack of planning is partly responsible for the significant
amount of contract dollars it obligates in the last month of the fiscal year—
44 percent of fiscal year 2008 obligated contract dollars were awarded in
September. Such delay creates a risk that planning will be rushed or not
performed at all, which could result in OAM awarding contracts to vendors that do
not represent best value to FMCSA. For example, in fiscal year 2008, OAM
awarded a $7 million contract for professional services to support the Motor
Carrier Safety Assistance Program—a major safety program to reduce the
incidence and severity of commercial motor vehicle crashes. According to OAM
officials, to ensure the contract was awarded by year-end, they solicited it for only
5 days, resulting in only one bid from the incumbent. While such short solicitation
times are not prohibited, had OAM planned more effectively and allowed more
time, it may have realized increased competition.

OAM Does Not Adequately Prepare Determinations and Findings To
Justify Using High Risk Contract Types

OAM is not consistently completing D&Fs to support its selection of contract
type. When D&Fs are completed, they do not contain all the elements required by
the FAR, such as details of the particular circumstances, facts, or reasoning
essential to support the determination (see table 2). The FAR requires agencies to
prepare a D&F to justify using contract types that subject the Government to a
greater degree of risk, such as T&M/LH contracts, any contract that is not firm-
fixed-price, or any contract for research and development. 14

Table 2. Summary of Non-Compliant Contract Type D&Fs for Contracts
Reviewed
         Category                 Contracts     Contracts      Value of       Percentage of
                                  Reviewed       with no    Contracts with      Value of
                                  Requiring       D&F           no D&F       Contracts with
                                Contract Type                (in millions)   no D&F to Total
                                    D&F                                         Universe
                                                                                Valued at
                                                                                 $334M
For All Contracts in
our Sample                     21               12              $55.5             17%
Breakout by Contract Type and Follow-On Status:
 •    T&M/LH
      Contracts                15                8              $32.2             10%
 •    Follow-on
      Contracts                13                7              $32.0             10%


14
     FAR 16.103(d) Negotiating Contract Type.
                                                                                                                    7


Furthermore, OMB's 2009 memorandum on government contracting underscores
the FAR’s requirement that an agency’s decision to use a T&M/LH contract must
be supported by sufficient analysis, including an explanation of why a firm-fixed-
price contract is unsuitable. 15 Such analyses are critical in FMCSA, which in
fiscal year 2008 obligated 37 percent 16 of its contract dollars on T&M/LH-type
awards, compared to 5 percent Governmentwide. 17 Specifically, only 7 of 15
T&M/LH contracts we reviewed contained the required D&F, and 2 of these
simply repeated verbatim the FAR requirement for using these contract types
without further explanation. 18 The remaining D&Fs for all other contracts we
reviewed contained vague contract detail and did not adequately support the use of
such a high risk contract type. The FAR also requires agencies to periodically
assess their T&M/LH contracts to determine whether changing circumstances or
experience gained throughout the period of performance provide a basis for firmer
pricing. However, we found no evidence in the 15 T&M/LH contracts we
reviewed that OAM analyzed the feasibility of changing to a low risk contract
type, such as a fixed-price contract.

Also, 39 percent of FMCSA's follow-on contracts we reviewed, valued at
$78 million, were T&M/LH-type contracts, which required a D&F. To illustrate,
in September 2008, FMCSA awarded a 5-year follow-on T&M contract for
approximately $10 million to prepare regulatory plans and provide policy
development support services. OAM's D&F to justify the use of this contract only
repeated verbatim the FAR requirement without providing further explanation.
However, FMCSA did not assess the current contract to determine if firmer
pricing could be used as it had done in the prior contract. Additionally, OAM
awarded the two prior contracts to the same vendor to acquire the same support
services for the Regulatory Division. The first was awarded in fiscal year 2004,
illustrating at least a 4-year purchase history with this vendor. If OAM exercises
all option periods for the current contract, FMCSA will have contracted for the
same service—under a high risk-type contract—for a prolonged period of 9 years.

Contract Files Lack Independent Government Cost Estimates Needed
To Negotiate Fair and Reasonable Prices
OAM is not adequately documenting or completing IGCEs to ensure fair and
reasonable prices for proposed projects. 19 For example, contract files for 11 of the

15
    OMB Memorandum Increasing Competition and Structuring Contracts for Best Result, October 27, 2009.
16
   According to data that FMCSA entered in FPDS-NG for fiscal year 2008.
17
    Reported in a March 18, 2009, OMB Letter to the Chairman on the Committee on Homeland Security and
   Governmental Affairs complying with Public Law 110-417.
18
   FAR 16.601(c) Time and Materials Contract: Application. A time-and-materials contract may be used only when it
   is not possible at the time of placing the contract to estimate accurately the extent or duration of the work or to
   anticipate costs with any reasonable degree of confidence.
19
   A documented and supported estimate of the cost of the proposed project based on factors such as prior buying
   history, rates in similar contracts, and inflation indicators.
                                                                                                                  8


27 contracts reviewed, valued at $71 million, did not contain required IGCEs.
When DOT negotiates prices with contractors, the TAM requires the requesting
program office to provide an IGCE for all proposed acquisitions. 20 While the
remaining 16 contracts had IGCEs, 9 of those contracts lacked methodology for
how they were calculated. Although providing methodology is not a requirement,
guidance from other Federal agencies states IGCEs should include any
assumptions, methodology, and reference material used in developing the cost
estimate. 21 FMCSA's lack of controls to ensure IGCEs are adequately developed,
coupled with OAM staff not inquiring or assessing how program offices prepare
their IGCEs, heightens FMCSA's risk of relying on poor cost estimates when
negotiating contract prices.

Legal Reviews Are Not Performed and Legal Concerns Are Not
Addressed

Prior to awarding contracts, FMCSA does not perform required legal reviews or
address the legal office's review comments. The TAM requires all solicitations
and contracts not awarded from Federal Supply Schedules 22 and expected to
exceed $500,000 be reviewed for legal sufficiency. 23 However, all 10 contract
files we reviewed that required both a solicitation and an award review were
missing one of these two reviews (see table 3).


Table 3. Summary of Non-Compliant Legal Reviews for 10 Contracts
Reviewed
                                                                            Value of        Percentage of
                                                                           Contracts      Value of Contracts
                                                   Contracts                Without       Without Reviews to
                                                    Without                Reviews          Total Universe
 Type of Legal Review Required                     Reviews*              (in millions)     Valued at $334M
Solicitation Review                                    9                      $66                20%
Award Review                                           6                      $47                14%
Solicitation or Award Review                          10                      $75                22%
*These files are for only those 10 contracts in our sample that required legal review.



20
   TAM 1215.404-70 Independent Government Estimates.
21
   Federal Aviation Administration Pricing Handbook 2: IGCE October 2007.
22
   The Federal Supply Schedules Program establishes a streamlined approach to procuring long-term Government-wide
   contracts for commercial supplies and services. Eleven of the 12 competed contracts we reviewed were awarded off
   the General Services Administration and National Institute of Health supply schedules. FAR 8.405-1(c)(1) Ordering
   procedures for Federal Supply Schedules: Ordering procedures for supplies and services not requiring a statement
   of work requires that the solicitation be sent to three vendors capable of performing the requested services; FAR
   8.405-2(c)(3) Ordering Procedures for Federal Supply Schedules: Ordering procedures for services requiring a
   statement of work requires additional vendors be selected when the contract value is expected to exceed the
   maximum order threshold.
23
   TAM 1204.7003(b) Legal Reviews. Legal reviews are also not required for contracts awarded under Simplified
   Acquisition Procedures and Interagency Acquisitions under the Economy Act.
                                                                                                                     9


When the legal office's reviews were completed, however, neither OAM nor the
program office consistently addressed the review comments. This is a result of
FMCSA not assigning clear roles and responsibilities to OAM and its program
offices regarding the legal review process. As a result, OAM staff believe it is the
program offices’ responsibility to address the comments and vice-versa. To
illustrate, on September 30, 2008, OAM awarded a $3 million contract for
professional support services to close out undelivered orders from FMCSA's
Delphi accounting system. The legal office's review of this proposed contract
expressed concern about inconsistencies between what was stated in the contract
and the program office's procurement request. The contract stated the period of
performance was 1 base year plus 2 option years, but the procurement request
stated the period of performance was 1 base year plus 4 option years. The legal
office advised OAM to rectify the inconsistency before awarding the contract.
However, the contract file did not contain documentation to support that this issue
was resolved.

Furthermore, for the files we reviewed, COs did not sign documentation asserting
the resolution of all legal comments prior to awarding a contract, as required by
TAM. 24 This is partly because the legal office does not have a process in place
requiring its staff to follow up with OAM about resolving their review comments
before awarding a contract, and OAM is not held accountable to ensure these
comments are addressed. The lack of clear roles and responsibilities, as well as a
process for addressing legal office comments and concerns before awarding a
contract, increases FMCSA's risk of awarding contracts that do not comply with
applicable statutes and regulations.


Program Offices Limit Competition by Not Informing OAM of the Need
for Contracts in a Timely Manner
FMCSA's program offices do not inform OAM of their need for contracts in a
timely manner—only 1 of 27 contracts we reviewed met FMCSA's procurement
lead time guidelines (see table 4). In 2002, FMCSA's Associate Administrator for
Administration issued a memorandum that recommended using standard
procurement lead times for planning and awarding a contract to ensure efficient
and economical procurement practices. 25 The standard procurement lead time is
measured as the period from which the program office requests the procurement to
the day OAM awards a contract. Despite these recommended procurement lead
times, however, OAM solicited 8 of 12 competitive contracts we reviewed for


24
   TAM 1204.7004(a) requires all approval decisions and the resolution of all comments to be written, signed, dated,
   and placed in the contract file; 1204.7004(b) requires the contracting officer to include a signed and dated written
   determination indicating that all of the conditions were satisfied prior to award.
25
   FMCSA’s memorandum Procurement Lead Times, November 22, 2002.
                                                                                                                   10


10 days or less, which may not have allowed qualified vendors time to become
aware of the competition and prepare a proposal.

Table 4. Summary of Non-Compliant Lead Times
       FMCSA Recommended                                                                          Contracts
Lead Times per Fiscal Year 2002 Memo                      Contracts We Reviewed                   That Met
                                                                                                Recommended
       Contract                       Lead Time         Number         Range of Lead              Lead Time
      Categories                       (in days)                       Times (in days)
SOLE SOURCE
            26
Non 8(a) less than
$500,000                                   180              2                17–28                       0
Non 8(a) greater than
$500,000                                   210              5               33–213                       1
8(a) set aside less than
$3,000,000                                 90               4                13–49                       0
8(a) set aside greater than
$3,000,000                                 120              2                14–95                       0
COMPETITIVE
Non 8(a) less than
$500,000                                   210              1                  40                        0
Non 8(a) $500,000-$5
million                                    270              3               54–112                       0
Non 8(a) greater than $5
million                                    420              6               61–188                       0
8(a) less than $3,000,000                   90              1                 43                         0
 8(a) greater than
$3,000,000                                 120              1                  17                        0
UNDETERMINED
                                                a
Guidance does not specify                  90               2                47–49                       0
Total                                                           27                                       1
a
 90 days was the minimum lead time for any acquisition; therefore since the extent competed was unable to be
determined for 2 contracts, the minimum lead time was used as the baseline to show that regardless of the extent
competed, they would not have met the recommended lead time established by FMCSA.



In addition, documentation in contract files revealed FMCSA's legal staff have
concerns that FMCSA's short lead times for soliciting potential vendors give the
appearance of favoring the incumbent. For example, OAM solicited a contract for
about $10 million for regulatory and policy support services to only three
vendors—one the incumbent—for just 3 days. Ultimately, OAM awarded this
contract to the incumbent because the other two bidders did not meet all of the
solicitation’s requirements and did not demonstrate the same level of experience
and knowledge. However, FMCSA’s legal review expressed concern that the
short solicitation time gave the appearance of favoring the incumbent, making
FMCSA vulnerable to bid protest. Insufficient lead times could greatly limit
26
     A classification of small business as determined by the Small Business Administration, which must be
     unconditionally owned and controlled by one or more socially and economically disadvantaged individuals.
                                                                                                                   11


competition and put FMCSA at risk of not achieving the best value for its
acquisition dollars.

Market Research is Not Performed or is Inadequate To Identify
Qualified Vendors

FMCSA does not sufficiently perform market research or adequately document its
results. To illustrate, for the 12 competitively awarded contracts we reviewed that
required market research:

       • 5 contracts—valued at over $69 million, or about 21 percent of FMCSA’s
         entire contract universe—had no documented market research, and

       • 7 contracts had limited documented market research, consisting only of a
         list of vendors from the Federal Supply Schedule.

Six of these 12 contracts received only one bid, essentially not ensuring that
FMCSA benefitted from competition to obtain goods and services at the best
value. The FAR 27 requires agencies to conduct market research before soliciting
offers for acquisitions with an estimated value in excess of $100,000 28 in order to
identify qualified vendors and the extent of possible competition in the market, as
well as the appropriate products and services to be acquired. The FAR also
requires market research results be documented in a manner appropriate to the size
and complexity of the acquisition.

OAM's award of a $7 million contract to perform regulatory, financial, and safety
reviews illustrates its insufficient use of market research to maximize competition.
In this case, OAM identified eight potential vendors and sent the solicitation to
three of them—only two vendors responded, one of which stated it did not
perform the services requested and therefore did not submit a proposal. The other
vendor was the incumbent and was ultimately awarded the contract. The CO
stated OAM did not issue the solicitation to the other five vendors because it is not
required to issue solicitations to more than three vendors. However, in this case,
OAM did not comply with FAR solicitation procedures requiring contracts over
the maximum order threshold be solicited to more than three vendors. 29

Further, OAM does not always use market research results provided by the
program office, a best practice in other Federal agencies given the program office's

27
     FAR Part 10: Market Research.
28
     The simplified acquisition threshold includes contracts with an anticipated value exceeding $3,000.
29
     Dollar value that identifies when a price reduction should be sought and additional vendors solicited. This dollar
     threshold varies by supply schedule. For this contract, the maximum order threshold was set at $1 million.
                                                                                                                   12


familiarity with the services being requested. 30 For example, the Strategic
Planning and Program Evaluation Division conducted detailed market research to
prepare an IGCE for a contract over $9 million to provide technical support for
Strategic Planning, Performance Management, and Program Evaluations. The
program office identified four vendors it determined had high quality past
performance on similar services for FMCSA or other Federal agencies. OAM
issued the solicitation for this contract to six vendors—only one of which was
identified by the program office. Ultimately, only one bid was received. OAM
stated it did not use the program office's market research results because it is not
required to and instead performed its own market research. 31

FMCSA'S CONTRACT ADMINISTRATION PRACTICES DO NOT
ENSURE FMCSA MEETS ITS NEEDS EFFECTIVELY AND
ECONOMICALLY
FMCSA’s contract administration and oversight do not provide assurance that its
contracts meet agency needs in the most efficient and economical manner. For all
27 contracts reviewed, we found contract documents with errors, contract files
missing required documents, and contracts signed by the CO after the contract's
effective date. Additionally, COTRs do not follow a systematic approach for
monitoring contracts, such as using structured monitoring plans and documenting
surveillance results when performing contract oversight. Also, COTRs and OAM
do not regularly communicate with one another, resulting in contrasting
information regarding basic, key contract information needed to ensure desired
contract outcomes.

COs Do Not Ensure Contract Files are Accurate and Complete

FMCSA’s contract files contained numerous problems, ranging from document
errors to missing documents. The CO is the sole person with the authority to enter
into a contract on behalf of FMCSA and is required by the FAR to "ensure
performance of all necessary actions for effective contracting, ensuring
compliance with contract terms, and for safeguarding the interest of the United
States in its contractual relationships." 32 However, we found errors the CO did not
correct, which made FMCSA vulnerable to potential legal issues. For example,
one contract we reviewed contained a personal service clause stating, "The on-site
project manager (PM) will serve as liaison…under the direct supervision of the

30
   Defense Procurement and Acquisition Policy Contract Pricing Reference Guide, Conduct Market Research for Price
   Analysis.
31
   FMCSA 2009 Succession Plan identified market research as a competency gap for the COs and COTRs.
   Additionally, it states that market research is not a critical aspect of the CO function, and therefore, FMCSA has no
   plans to improve its COs' skills in performing market research. OAM officials later advised us that it is the program
   office's responsibility to perform market research, not the COs.
32
   FAR 1.602 Contracting Officers.
                                                                                                                     13


Chief of the Physical Qualifications Division and the COTR(s) for this
program." 33 Such personal service clauses—whereby contractor personnel are
supervised by government employees—are prohibited by law, and neither OAM
nor the COTR were aware the contract contained the clause.

In addition, we found contract files lacked required documents, such as a complete
set of contract modifications, acquisition plans, justifications and D&Fs, and
COTR designation letters. For example, the current OAM staff were unable to
determine the extent of competition in two contracts we reviewed because the
contract files lacked documentation to support whether they were competitive or
sole-source awards. The FAR states that such documentation in contract files
shall be sufficient to constitute a complete history of the transaction for making
informed decisions at each step of the acquisition process and to support any
actions taken. 34 In addition, the Government Accountability Office’s Standards
for Internal Control in the Federal Government states agencies should have
internal control activities, such as the creation and maintenance of records, that
provide evidence of execution of approvals and authorizations. The need for well-
maintained and complete contract files is not only important for OAM's day-to-
day contract administration, but is also important given OAM staff's high turnover
rate, and complete contract files help ensure proper transfer of responsibilities
among staff and continuity of operations.

A contract only becomes a legal document after it is signed by the CO. However,
we found four contracts, valued at $13.2 million, where COs provided their
signature after the awards' effective date. Contractors began performing work on
these four contracts before legally authorized. For example, we found a 4-month
bridge contract valued at almost $1 million for operation and maintenance of
commercial driver licenses databases with an effective date of June 1, 2008.
However, the CO did not sign this contract until September 15, 2008—107 days
after the effective date and only 9 days before the contract’s performance period
ended. 35 Also, other contract documents, such as task orders and modifications,
were not signed by the CO. In addition, while the current OAM Director required
COs to sign-off on a quality review form to ensure accuracy of contract actions,
we found several unsigned forms, mitigating the effectiveness of this internal
control. The errors and inconsistencies we found in FMCSA's contract documents


33
     FAR 37.104(a) & (b) Personal Service Contracts: Agencies shall not award personal services contracts unless
     specifically authorized by statute to do so. Obtaining personal services by contract, rather than by direct hire,
     circumvents civil service laws unless specifically authorized by Congress. A personal services contract is
     characterized by the employer-employee relationship where, as a result of the contract’s terms or the manner of its
     administration during performance, the contractor personnel are subject to the relatively continuous supervision and
     control of a Government officer or employee.
34
     FAR 4.8, Government Contract Files.
35
     OAM provided the contractor a notice of authorization to begin work prior to the contract being signed.
                                                                                                                14


could result in legal disputes and ultimately put FMCSA at risk of not receiving
what it paid for.

COTRs' Lack of a Systematic Approach To Monitoring Contracts and
Communicating with OAM Hinders Adequate Contract Oversight

FMCSA does not adequately monitor its contracts. FMCSA does not use a
systematic approach for contract monitoring, and COTR files we reviewed were
often incomplete or missing. For example, of 21 COTR files we reviewed that
corresponded to contracts valued at $162 million:

     • 18 files—86 percent—valued at $142 million lacked a surveillance plan or
       oversight methodology; and

     • 17 files—81 percent—valued at $129 million lacked documentation of
       completed contractor performance reviews or quality assurance evaluations.

We reviewed only 21 COTR files because FMCSA was unable to locate the
COTR files for 7 contracts we audited, further demonstrating weaknesses in
FMCSA's effort to monitor contractor performance. FMCSA does not ensure
COTR files contain key documents that are recommended by FMCSA 36 and
DOT 37 policy and are essential for successful contract monitoring and oversight.
In addition, best practices state that documenting contract monitoring and
surveillance are key practices to the contract administration process. 38 Complete
and orderly contract files are vital to ensuring both the contractor and FMCSA
meet their contract obligations, particularly when disagreements or questions of
interpretation arise, and to hold contractors accountable for delivering intended
results. 39

Also, COTRs do not regularly document or provide the CO with evidence of their
efforts to evaluate contractor performance, work progress, and payments made, as
required by FMCSA's COTR Order. 40 Over half of the COTRs we interviewed do
not document their surveillance results, and some stated they store such
information “in their heads.” When COTRs did maintain some sort of
documentation, it was not formally or consistently prepared to allow the results to
be easily accessed or utilized. For example, one COTR informally annotated
evaluation results on meeting agendas. Adequately documenting contract


36
   FMCSA Order 4200.2.
37
   DOT COTR Program, September 2008.
38
   Office of Federal Procurement Policy. A Guide to Best Practices for Contract Administration, October 1994.
39
   FMCSA Order 4200.2 and FMSCA COTR Handbook Draft, March 2007.
40
   FMCSA Order 4200.2 FMCSA COTR Requirements, January 16, 2004.
                                                                                                               15


monitoring is especially important given FMCSA’s high use of T&M/LH
contracts, which place cost and performance risks on FMCSA.

Further, COTRs are not regularly communicating with OAM during the pre- or
post-award phases of the contract, resulting in contrasting viewpoints regarding
basic, yet key, contract information. 41 For example, four of six COTRs gave
differing information from OAM on the type of contract they were administering
and overseeing—OAM responded the contract type was T&M, while the COTR
stated it was fixed-price. OMB Guidelines state the COTR needs to continuously
communicate with the CO, beginning in the pre-award phase and continuing
throughout the contract’s performance period. Since knowing the contract type is
a critical factor in developing the correct oversight methodology, it is particularly
important for OAM and COTRs to be involved in the pre-award phase to ensure
both parties clearly understand the post-award contract surveillance tasks needed
to achieve the desired contract outcomes.

FMCSA'S INADEQUATE INFRASTRUCTURE INHIBITS THE
EFFECTIVENESS OF ITS ACQUISITION FUNCTION
FMCSA lacks the critical components needed for an effective acquisition function.
Specifically, weaknesses exist in FMCSA's organizational alignment and
leadership, policies and processes, acquisition data, and human capital, which
contributed to the poor contracting practices presented in this report.

In May 2008, OMB issued Guidelines for Assessing the Acquisition Function 42 to
all Chief Acquisition Officers to provide guidance on performing entity-level
acquisition function internal control reviews required by OMB Circular A-123. 43
These guidelines consist of four interrelated cornerstones essential to an efficient,
effective, and accountable acquisition process: (1) organization alignment and
leadership, (2) policies and processes, (3) human capital, and (4) information
management and stewardship. FMCSA's lack of emphasis on improving these
cornerstones is the primary cause of OAM's and the program offices' continued
use of high risk business arrangements, such as T&M/LH contracts; not obtaining
maximum competition when awarding contracts; and not ensuring that FMCSA is
meeting its requirements efficiently and economically.

41
   We interviewed only the COTRs for the 6 most recent contracts reviewed so we would be able to interview both the
   COTR and the contract specialist for each contract.
42
   OMB Memorandum Conducting Acquisition Assessments under OMB Circular A-123, May 21, 2008. The template
   in OMB’s Guidelines for Assessing the Acquisition Function is adopted from the U.S. Government Accountability
   Office's (GAO) Framework for Assessing the Acquisition Function at Federal Agencies, GAO-05-218G (2005),
   which provided guidance aimed at enabling high-level, qualitative assessments of the strengths and weaknesses of
   agencies’ acquisition functions.
43
   OMB Circular A-123 Management Accountability and Controls, June 21, 1995, defines management’s responsibility
   for internal controls in Federal agencies.
                                                                                                               16


OAM is neither used nor acts as a strategic partner to implement FMCSA's
mission objectives. OAM plays a critical role in executing the award of multi-
million dollar contracts to assist FMCSA in accomplishing its mission. For
example, FMCSA relies on OAM to award contracts, such as OAM's recent award
for compliance reviews of states' Commercial Driver License compliance
operational practices, 44 However, FMCSA's program offices do not use OAM as a
strategic partner—that is, they do not use OAM's expertise during the acquisition
process for help in planning acquisitions to achieve common goals, such as
receiving goods at fair prices. Rather, OAM is viewed more as an administrative
support function, and FMCSA's program offices generally direct and dictate
acquisitions.

Furthermore, FMCSA's management has not clearly defined the roles and
responsibilities of its acquisition team to serve as such a strategic partner. OAM's
2009 acquisition improvement plan identifies FMCSA's culture as not recognizing
program managers, supervisors, and other Agency leaders as part of the
acquisition workforce. As a result, cross-functional teams are not used and
acquisition plans are not always developed when making strategic acquisition
decisions, such as determining the extent of competition and appropriate contract
type, which ultimately can lead to not receiving mission critical goods and
services at the best value.

Acquisition policies and processes are not fully established. FMCSA has not
promptly implemented or clearly communicated acquisition policies and processes
to promote an efficient, cost-effective, and accountable acquisition function. 45
OAM identified 15 standard operating procedures (SOP) it needs to develop in
order to effectively achieve its mission. However, as of January 2010, only 4 of
these 15 SOPs were completed. 46 OAM officials acknowledged it has not met its
goal of issuing the remaining 11 SOPs, some of which are mission critical,
because they are short staffed and have other competing responsibilities, such as
reconciling databases and contract closeouts.

Also, FMCSA's management has not implemented internal controls for awarding,
administering, and overseeing contracts to ensure its staff are held accountable for
complying with Federal and departmental regulations and guidance.
Consequently, OAM and program office staff do not always observe these
regulations, such as preparing justifications for high risk contracts, preparing
44
   FMCSA's current Strategic Plan for 2006–2011 does not mention OAM or the acquisition function among its
   mission-based goals, objectives, and strategies.
45
   While TAR and TAM establish requirements and guidelines, FMCSA lacks standard operating procedures and
   controls to ensure that these requirements and guidelines are implemented consistently throughout the Agency.
46
   OAM created a policy team in April 2009 to develop and issue SOPs. The policy team consists of one team lead and
   two supporting contractors. The list has been evolving since August 2008 and is based on OMB A-123 audit
   reviews and the new Director's observations of OAM's processes.
                                                                                                                  17


acquisition plans, obtaining legal reviews, and performing market research.
Communication and awareness of internal controls is also critical. Yet, FMCSA's
acquisition policies and processes are not clearly communicated to all involved in
the acquisition function. For example, most of the COTRs we interviewed were
not aware of FMCSA Order 4200.2—FMCSA COTR Requirements, dated
January 16, 2004. FMCSA’s lack of acquisition policies and internal controls
prevents Agency managers from establishing basic expectations for how staff
should award, administer, and oversee contracts, therefore imposing a barrier to
establishing an efficient and results-oriented acquisition process.

FMCSA’s acquisition data is unreliable and incomplete. OAM is unable to
identify FMCSA’s contract universe, which it is responsible for managing, and
also lacks controls to reasonably ensure available procurement data is reliable.
Procurement officials require a range of information and data to effectively
manage their acquisitions and corresponding internal controls to ensure data
accuracy, as provided under OMB Guidelines and internal control standards.
However, discrepancies exist in the three electronic systems FMCSA uses to fund,
write, and report its procurements. The three systems are: Delphi, the Office of
the Secretary of Transportation's (OST) financial management system; PRISM,
OST’s contract writing system; and FPDS-NG, the Federal Procurement Data
System-Next Generation. The proper documentation and authorization of
payments in these systems are essential to mitigate the risk of improper or
fraudulent payments to vendors. However, since these systems do not interface,
FMCSA staff must manually transfer data among them, increasing the risk of
errors. 47 For example, we identified 25 contracts with obligations over
$13.7 million for which FMCSA issued a payment through Delphi but did not
make a corresponding data entry in either PRISM or FPDS-NG. OAM was unable
to locate the contract file for 10 of these 25 contracts. 48

FMCSA has not determined the appropriate size and skills for its acquisition
workforce to be successful. FMCSA's April 2009 acquisition workforce
succession plan—intended to be used as a tool to help FMCSA prepare its
workforce for the future—has several weaknesses that limit its ability to position
FMCSA's acquisition workforce, both in numbers and required skills. First, even
though FMCSA did not assess its current and future acquisition workload to
provide a basis for staffing decisions contained in the succession plan, it still found
it lacked an adequate number of employees to carry out its duties and
responsibilities. Given the absence of a workload assessment, OAM’s staffing

47
     DOT is implementing a phased integrated approach— called ONE DOT PRISM—to improve PRISM
     interoperability with Delphi, which DOT expects to provide, among other things, efficiency, accuracy and quality
     in procurement reporting.
48
     The Office of the Chief Financial Officer was able to provide invoices to support FMCSA's payments for 9 of these
     10 contracts but not for the remaining contract.
                                                                                 18


conclusions may not be accurate. Second, the plan's assessment of OAM's current
workforce included only government staff. However, OAM relies heavily on
contracted staff to conduct its procurement functions—55 percent of its contract
specialists are contractors.

A successful acquisition function also requires a talented and trained workforce to
develop, manage, and oversee acquisitions. However, FMCSA's succession plan
indentified competency gaps for its CO and COTRs, several of which OMB
Guidelines identify as critical for a successful acquisition function (see exhibit B
for the list of competency gap results). For example:

• The CO had competency gaps in 11 of 17 contracting function areas included
  in the questionnaire, such as managing competition, market research, and
  awarding contracts.

• COTRs had competency gaps in all 8 contracting function areas, such as
  acquisition planning, effective contract management, and market research.

FMCSA has not provided any evidence that it is taking actions to follow through
and resolve these competency gaps.


CONCLUSION
FMCSA utilizes contracts to fulfill its primary safety-related mission goal of
reducing crashes, injuries, and fatalities involving large trucks and buses.
Therefore, sound procurement practices and an effective acquisition structure must
be in place to ensure Federal funds are appropriately spent and that FMCSA
maintains integrity in its day-to-day procurement operations while leveraging its
acquisition function to help further its mission. FMCSA has the opportunity to
build a model acquisition function by assessing and improving its existing
strategic partnerships, policies and processes, human capital approaches, and
contract information systems. Furthermore, FMCSA's inadequate acquisition
function has contributed to its limited use of competition, leaving it vulnerable to
awarding contracts that are not at the best value to the Agency. Until FMCSA
takes action to improve the core elements of its acquisition function, it will
continue to risk wasting millions of taxpayers' dollars using poor contracting
practices.
                                                                                 19


RECOMMENDATIONS
We recommend that the Administrator, Federal Motor Carrier Safety
Administration take the following actions to improve its acquisition function:

Maximize competition and strengthen FMCSA’s acquisition infrastructure to:

   1. Require program offices to coordinate with the Office of Acquisition
      Management, FMCSA's legal counsel, and the Office of the Chief Financial
      Officer throughout the strategic planning process to develop efficient,
      effective, and economical acquisition strategies.

   2. Develop policies that clearly identify roles and responsibilities and
      documentation requirements for (1) market research, (2) independent
      government cost estimates, (3) legal reviews, and (4) contract-type
      selection and justification.

   3. Develop and implement internal controls and performance measures to
      ensure that policies and processes for efficient and effective award,
      administration, and oversight practices are adhered to.

   4. Develop and implement verification procedures to ensure data in FPDS-NG
      and PRISM are current, accurate, and complete.

   5. Complete a contract workload analysis and use it as a basis to perform a
      workforce analysis.

   6. Implement strategies identified in FMCSA's April 2009 strategic
      acquisition workforce succession plan to resolve identified competency
      gaps, including plans to attract, retain, and train the workforce.

   7. Implement an internal acquisition quality assurance review program to
      ensure Federal and departmental regulations are met throughout the
      contract cycle.

Improve FMCSA’s contract administration and oversight by revising FMCSA
Order 4200.2, COTR Requirements to:

   8. Require the use of a systematic monitoring/contract administration plan.

   9. Require the use of a risk-based approach for monitoring contracts to assist
      in identifying high risk contracts warranting additional oversight.
                                                                               20


AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
RESPONSE

A draft of this report was provided to FMCSA for comment on June 17, 2010. We
received FMCSA's response on August 4, 2010, which can be found in its entirety
in the appendix of this report. FMCSA fully concurred with all of our
recommendations and provided reasonable timeframes for completing the planned
actions. In addition to addressing our audit recommendations, FMCSA's response
also cited implemented and ongoing procurement process improvements. We
appreciate the greater attention that FMCSA is paying to improving its acquisition
function and its recognition of its positive interactions with OIG staff.

ACTIONS REQUIRED
FMCSA’s planned actions and target dates are responsive to our
recommendations. We consider these recommendations addressed pending
completion of planned actions. We appreciate the courtesies and cooperation of
FMCSA representatives during this audit. If you have any questions concerning
this report, please call me at (202) 366-5225 or Anthony Wysocki, Program
Director, at (202) 493-0223.


cc:   Martin Gertel, M-1
      Karen Lynch, MC-PRS
                                                                                 21


EXHIBIT A. SCOPE AND METHODOLOGY

We conducted this audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to
obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objectives. We believe that the
evidence obtained provides a reasonable basis for our findings and conclusions
based on our audit objectives.

We conducted this audit between June 2008 and January 2010. To address our
audit objective, we assessed FMCSA's procurement practices and organization
against criteria contained in the Federal Acquisition Regulation (FAR),
Transportation Acquisition Regulation (TAR), Transportation Acquisition Manual
(TAM), Office of Management and Budget Guidelines for Assessing the
Acquisition Function (OMB Guidelines), and other applicable departmental and
Federal regulations and guidance. We interviewed contracting staff and
management and program office representatives, analyzed contract file documents,
and reviewed employee performance standards and training records.

We judgmentally selected a total of 28 contracts from 2 separate universes we
developed from contract actions reported in FPDS-NG data between fiscal year
2005 and January 12, 2009, displayed in table 5. We used this two-staged process
to select our 28 contracts for review to reflect the high turnover in Office of
Acquisition Management (OAM) staff and because FMCSA hired a new
Contracting Officer (CO) and Acting OAM Director in May and June 2008,
respectively. To select our first sample of contracts, we used two sets of criteria:
(1) the contract's dollar value was over $1 million, or (2) the contractor was
providing support services to FMCSA's acquisition function. These selected
contracts are typical of FMCSA's acquisitions during the period of fiscal year 2005
through January 12, 2009, in terms of contract type and extent competed. Further,
we placed an emphasis on selecting high risk contract types, such as Time and
Materials and Labor Hour-type contracts and cost reimbursable contracts. We
selected our second sample of contracts from a universe of contract actions with
an effective date recorded in FPDS-NG after September 15, 2008, using the same
criteria.




Exhibit A. Scope and Methodology
                                                                                                        22


Table 5:      FMCSA's Contract Universe and Contracts Selected for Review
 Number      Value of   Range of     Number of      Value of    Range of     Number      Value of   Range of
   of       Contracts    Fiscal       Contracts    Contracts    Contract       of       Contracts   Contract
Contracts       in      Years of    Judgmentally   Selected      Award      Contracts   Reviewed     Award
   in       Universe    Contracts     Selected                  Years of    Reviewed                Years of
Universe                   in                                   Contracts                           Contracts
                        Universe                                Selected                            Reviewed



First Sample Selection:
(Universe included contract actions during fiscal year 2005 to June 16, 2008*)
   360        $281       1999–            22           $173       2002–        21**      $160        2003–
             Million      2008                         Million     2008                  Million      2008

Second Sample Selection:
(Universe included contract actions during June 16, 2008 to January 12, 2009)
  115          $53       2003–            6           $32        2008         6           $32         2008
             Million      2009                       Million                             Million

Combined Sample Selection:
(Combines sample selections 1 and 2)
 410***     $334        1999–            28          $205        2002–         27        $192        2003–
           Million       2009                        Million      2008                   Million      2008

*Although the data was extracted starting in fiscal year 2005, every contract action performed on a contract
must be recorded in FPDS-NG; therefore, when we judgmentally selected contracts, actions performed on
contracts awarded prior to 2005 were in our universe and selected for review.
** OAM was unable to provide one contract.
*** Totals from first and second contract selection do not sum to combined selection because contracts in
first selection were still ongoing during second selection.



We reviewed a sample of contract files and the associated Contracting Officer's
Technical Representatives' (COTR) files to assess whether the contract award and
administrative practices were in compliance with Federal and departmental laws
and regulations, including contract competition, acquisition planning and market
research, the use of justifications for high risk contract actions, and whether
contract award lead times met departmental regulations. In addition, we reviewed
COTR files for evidence of required contract monitoring and contractor
performance evaluations.

We interviewed a range of FMCSA staff, including COs, COTRs, contract
specialists, legal staff, and other FMCSA management officials to obtain
information on their contracting process and practices. In addition, to assess the
adequacy of FMCSA's acquisition workforce, we reviewed FMCSA’s acquisition
succession plan, staff performance standards, resumes, and training records. To
determine the reliability of FMCSA's contract-related databases, we compared
contracts reported and dollars obligated in the following three systems: FPDS-NG
(contract reporting system), PRISM (contract writing system), and Delphi (the
accounting system).


Exhibit A. Scope and Methodology
                                                                                   23


EXHIBIT B. FMCSA'S IDENTIFIED CONTRACTING FUNCTION
COMPETENCY GAPS

(Source: FMCSA Strategic Acquisition Workforce Succession Plan Draft April 2009)


Contracting Officer
Technical
Bid Evaluation
Contract Award
Defining Contractual Relationships
Defining Requirements
Financial Management
Managing Competition
Market Research
Project Management
Proposal Analysis and Evaluation
Small Business and Preference Program
Participation
Solicitation of Orders




Contract Specialist
Technical
Dispute Resolution and Termination



COTR Function
Technical
Acquisition Planning
Defining Government Requirements
in Commercial/Non-Commercial Terms
Effective Contract Management
Effective Pre Award Communication
Market Research (Understanding the
Marketplace)
Negotiation
Performance Management
Technical Analysis of Proposals




Exhibit B. FMCS A's Identified Contract ing Function Competency
Gaps
                                                            24


EXHIBIT C. MAJOR CONTRIBUTORS TO THIS REPORT

  Name                                  Title

  Anthony Wysocki                       Program Director

  Kenneth Prather                       Program Director

  Dana Short                            Project Manager

  Aisha Evans                           Project Manager

  Rachel Alderman                       Senior Auditor

  Angela Hailes                         Analyst

  Jill Cottonaro                        Senior Analyst

  Meghann Noon                          Auditor

  Krista Kietrys                        Writer-Editor

  Amy Berks                             Associate Counsel

  Petra Swartzlander                    Statistician




Exhibit C. Major Contributors to This Report
                                                                                                25


                   APPENDIX. AGENCY COMMENTS



                                                                 Memorandum
           U.S. Department
           Of Transportation

           Federal Motor Carrier
           Safety Administration



Subject:   INFORMATION: Response to the OIG Draft               Date:      August 4, 2010
           Report “Federal Motor Carrier Safety
           Administration Lacks Core Elements For A
           Successful Acquisition Function”
           Project No. 08Z3002Z000

From       Anne S. Ferro                                        Reply to   MC-P
                                                                Attn of:
           Administrator


To:        Terry Letko
           Acting Assistant Inspector General for Acquisition and
           Procurement Audits


           The Federal Motor Carrier Safety Administration (FMCSA), working with the Department’s
           Office of Inspector General (OIG), has achieved great strides over the past year improving
           management, systems and processes in its procurement office. FMCSA identified many of these
           issues during a 2008 internal controls review, prompting the previous FMCSA Administrator to
           request that OIG conduct a study to validate our findings and ensure that they were
           comprehensive. FMCSA has benefitted from its interactions with the OIG staff over the last two
           years as the Agency completed numerous actions identified below that have enabled us to
           achieve significant improvement from the perspective conveyed in the OIG draft report. The
           Agency has additional actions underway with the intent of providing the organization with up-to-
           date policies, practices and procedures in full compliance with all applicable procurement
           requirements. Achieving this goal will take time, but progress is well underway.

           FMCSA IMPLEMENTED IMPROVED PROCUREMENT PROCESSES

           FMCSA has implemented numerous changes that significantly improved its procurement
           operations. Specifically, FMCSA has revised requirements, improved procurement planning,
           enhanced coordination, standardized procedures, and improved procurement monitoring over the
           past year. For example, with regard to improved planning and revised requirements, FMCSA’s
           initial actions included improving the organizational structure and the information flow.


           Appendix. Agency Comments
                                                                                           26


Contract Specialists were assigned to specific contracts (vice contract actions) enabling
individuals to develop a knowledge of the contract and scope of work and in turn provide better
management and oversight. During the course of the OIG’s audit, FMCSA hired an additional,
senior-level Contracting Officer (CO) and developed a new organizational structure capable of
better addressing the contracting work load and separation of duties. The CO also strictly
enforces the file documentation requirements to ensure adherence to the Federal Acquisition
Regulation. As part of the planning process, cross-functional teams meet to discuss the
requirements, scope, and the preliminary acquisition plans. During these planning meetings,
representatives from the FMCSA Office of Acquisitions Management (OAM) advise the
program offices on acquisition planning, market research, development of the Independent
Government Cost Estimate and possible contract strategies and types.

To increase coordination and communication and address issues expeditiously, FMCSA
implemented cross-functional meetings with key personnel that include the OAM, Office of
Chief Counsel and the respective program offices. On a weekly basis the OAM and the Office of
Chief Counsel meet to review contract-related issues, upcoming actions, and develop
coordinated responses. There are also regular meetings between OAM and the Associate
Administrators (AA) to review contract status and contract requirements and begin planning
future activities. The Agency also established an Acquisition Review Panel (ARP) for major
acquisitions to provide better visibility of the procurement process and ensure applicable
procedures are appropriately followed. Collectively, these meetings have resulted in increasing
the visibility of the acquisition function, at all levels, within FMCSA; greater understanding of
acquisition requirements by the program office; higher quality and better developed contracts.

During 2010, FMCSA implemented standard operating procedures (SOPs) for Contract
Closeout, Distribution of Awards Process, and Procurement Request procedures. These SOPs
will provide comprehensive guidance and clarify expectations throughout the organization.
FMCSA widely distributed these SOPs within the Agency and they are available on the
Agency’s SharePoint site.

In addition, the Agency also improved procurement tracking and staff training. FMCSA initiated
funding of the electronic requisitioning feature in PRISM, which improves requisition tracking
and facilitates automated approval of the procurement requests. The Agency also formalized
invoice tracking and funds monitoring by implementing a modification summary sheet as part of
the contract file. Finally, FMCSA also implemented internal training on the use of General
Services Administration Schedule, acquisitions policy, and competition requirements to better
ensure acquisition staff is fully and appropriately trained.

ADDITIONAL ACTIONS UNDERWAY TO FURTHER IMPROVE PROCUREMENT

Ongoing change process initiatives will offer additional improvements. The timeframe of these
initiatives varies from near term efforts that will produce additional benefits in the short term, to
longer term actions that will take some time to achieve full realization. The initiatives include:




Appendix. Agency Comments
                                                                                        27


Maximizing Competitive Procurement and Achieving Cost Savings

FMCSA continues to promote a fully competitive procurement environment and is making
progress eliminating existing sole source contracts. As a prime example, in 2009 FMCSA
solicited bids for a new regulatory information system used nationwide by more than 10,000
Federal and State safety investigators. The solicitation garnered several proposals, which
enabled FMCSA to enter into a Firm-Fixed Price (FFP) contract, saving the Agency more than
$400K over the life of the contract. In addition to the cost savings, FMCSA successfully
resolved two protests following the award. The resolution of those protests can be directly
attributed to FMCSA efforts to ensure that the technical evaluation panel was objective, and that
the evaluation and award were thoroughly deliberated and documented in the acquisition file.
Similarly, FMCSA replaced a Time and Materials (T&M) contract that had been used to support
FMCSA’s Information Technology networks with a FFP contract. FMCSA provided the
solicitation for this contract to more than 20 small businesses, which resulted in the receipt of
five proposals. The successful offeror’s proposal was technically superior to the incumbent’s
and reduced the Agency’s cost by $1 million.

Improving Acquisition Planning

Many of the improvements made by FMCSA were demonstrated in the competition and
subsequent award for FMCSA’s national training program support contract. Using the
collaborative planning process the OAM, program office, and Office of Chief Counsel developed
a comprehensive, well coordinated acquisition plan resulting in an Indefinite Delivery/Indefinite
Quantity (IDIQ) contract that eliminated three existing Labor Hour (LH) contracts. The
solicitation resulted in 16 proposals. This acquisition planning model for developing a standard
acquisition plan and collaborative product and planning development continues to be used
effectively. For example, as FMCSA prepares for the competition of a major mission critical
system, regular meetings between OAM, the Office of Chief Counsel and the program office
have addressed issues and contract strategies early during the planning phase, allowing sufficient
time to make adjustment and still meet requirement need dates cost effectively.

In-sourcing Support Functions

FMCSA is reviewing its contract portfolio and eliminating administrative and other support
contracts. For example, FMCSA decided to in-source its acquisition support and allowed the
contract to expire in June 2010. Further, there are at least two other administrative and other
support contracts that will not be renewed in fiscal year (FY) 2011 as FMCSA seeks to build
capability by developing its in-house talent.

Improving the Visibility of Acquisitions across FMCSA

To provide senior level management with more visibility and insight into the acquisition
processes, the OAM participates in key meetings that impact the Agency’s contracting strategy.
The OAM is included in expenditure planning and regular budget execution meetings with the
Administrator and senior staff. Participation by the OAM highlights the need to complete proper
planning for upcoming procurement activities, provides an opportunity to address potential



Appendix. Agency Comments
                                                                                      28


issues early in the procurement process, and heightens senior management awareness of issues.
The AAs and other senior leaders frequently participate in the acquisition planning process,
signaling their commitment to following proper policy and procedures. Additionally, FMCSA’s
AAs meet regularly to discuss status of acquisitions and indentify future activities. This
information exchange has facilitated better understanding of the acquisition process and
improved support by the OAM. For major contract awards, the OAM, in conjunction with the
program offices and Office of Chief Counsel, have presented to the senior management team, the
technical review panel results prior to contract award to provide insight in major program
initiatives in the Agency and the award process. FMCSA’s senior management team continues
to embrace these initiatives resulting in better planning, improved product quality, better
adherence to policy and procedures and ultimately an enhanced ability for the Agency to meet its
safety mission by having the needed resources.


RECOMMENDATIONS AND RESPONSES

RECOMMENDATION 1. Require program offices to coordinate with the Office of
Acquisition Management, FMCSA's legal counsel, and the Office of the Chief Financial
Officer throughout the strategic planning process to develop efficient, effective, and
economical acquisition strategies.

Response: CONCUR. In 2009, FMCSA implemented cross-functional meetings with key
personnel from OAM, the Office of Chief Counsel and the respective program offices. There are
now regular standing meetings with the OAM and the Office of Chief Counsel to review contract
related issues and upcoming actions. There are also regular meetings at the AA level to review
contract status and contract requirements. The draft SOP for Acquisition Planning is in the final
stage of preparation and the Agency anticipates issuing the SOP in December 2010. This
process is reinforced by FMCSA’s ARP for major acquisitions. FMCSA is in the process of
further strengthening coordination and review by instituting an Investment Review Board (IRB)
that would review all major procurement actions by March 2011.

RECOMMENDATION 2. Develop policies that clearly identify roles and responsibilities
and documentation requirements for (1) market research, (2) independent government cost
estimates, (3) legal reviews, and (4) contract-type selection and justification.

Response: CONCUR. FMCSA will complete SOPs and policies for market research,
independent government cost estimates, legal review, and contract-type selection and
justification. The SOPs will define processes, roles and responsibilities, and expected
documentation for the key components of planning, development, award, and administration of a
contract. These SOPs will ensure appropriate implementation of the Federal Acquisition
Regulation requirements and all applicable acquisition regulations, policies, and procedures.
FMCSA anticipates completing these SOPs by December 2010.

RECOMMENDATION 3. Develop and implement internal controls and performance
measures to ensure that policies and processes for efficient and effective award,
administration, and oversight practices are adhered to.



Appendix. Agency Comments
                                                                                         29



Response: CONCUR. As described above, FMCSA has actions both completed and underway that
will contribute to better ensuring Federal, departmental, and FMCSA requirements are fulfilled
with regard to procurement. FMCSA has already improved its monitoring of contracting activities
with additional supervisory resources in OAM. The upcoming SOPs will facilitate these efforts by
layering clear expectations and consistency on these processes. Further controls and oversight of
the process will be implemented once FMCSA’s new organization structure is put in place that will
increase separation of duties, and enhance the Agency’s ability to implement some degree of
independent verification. In addition, new layers of management review, both implemented and to
be added through mechanisms such as the FMCSA ARP and IRB, will further enable the
organization to ensure that requirements, policies, and processes are fully and appropriately
implemented. These actions will be on-going and tested regularly under A-123 and FMFIA to
ensure effectiveness of new processes. FMCSA anticipates performing final testing within 1-year
of implementation of the final policies and procedures by March 2012.

RECOMMENDATION 4. Develop and implement verification procedures to ensure data in
FPDS-NG and PRISM are current, accurate, and complete.

Response: CONCUR. FMCSA is developing an automated process of reconciling common data
fields within the financial management system, PRISM and FPDS-NG to ensure accurate
reporting and recording of financial obligations. The Agency will begin implementing this
initiative in December 2010 and will reconcile exception errors on a quarterly basis.

RECOMMENDATION 5. Complete a contract workload analysis and use it as a basis to
perform a workforce analysis.

Response: CONCUR. The Agency has included funds for the implementation of a contract
workload analysis in the FY 2012 budget and anticipates completing the analysis by October
2012.

RECOMMENDATION 6. Implement strategies identified in FMCSA's April 2009
strategic acquisition workforce succession plan to resolve identified competency gaps,
including plans to attract, retain, and train the workforce.

Response: CONCUR. The FMCSA Human Capital Strategic Plan identifies acquisition
positions as mission critical. As part of this plan, FMCSA has identified strategies to recruit and
retain acquisition professionals allowing the Agency to narrow skill gaps and establish a robust
organization. To implement this plan, FMCSA has taken the initial steps to address OAM
workforce issues. Some of the gaps in skills within the OAM were the result of FMCSA’s
reliance on contract support. Contractors provided extensive knowledge of the Federal
Acquisition process and represented over 50 percent of the workforce. To build both capacity
and capability within the OAM, FMCSA decided to in-source its acquisition support function
consistent with the draft FY 2010 Human Capital Development Plan.

FMCSA’s Human Resource Office continues to work closely with the OAM Director in
advisement of hiring authorities available to attract well qualified candidates to include



Appendix. Agency Comments
                                                                                          30


authorities that provide direct hire and rehired-annuitants and establishing entry level positions.
FMCSA’s Human Capital Development Plan and budgets are focused on resourcing strategies
related to the recruitment and retention of mission critical skills. These initiatives include
maximum use of hiring authorities, loan repayment programs, increased funding for tuition
assistance, managerial/leadership programs and developmental assignments. The Agency’s FY
2011 budget request includes additional resources for the OAM. The OAM works with
FMCSA’s National Training Center to provide acquisition training for the full spectrum of the
acquisition community (e.g., program managers, Contracting Officer’s Technical
Representatives (COTRs), etc.) to improve all aspects of the acquisition process. The training
center developed a training guide that implements the training component of the DOT COTR
Program Policy to meet the COTR certification and recertification training requirements. This
plan includes a combination of in class-room and web-based courses that complement the full
range of the acquisition processes. By December 2010, FMCSA will ensure that the training
program meets the career development training requirements identified by the Office of the
Secretary of Transportation.

Overall, FMCSA will be making full use of available tools to fill any skill gaps that remain in the
organization, as we move forward. However, it is important to recognize the competitive nature
of the marketplace for skilled acquisition professions throughout the Federal government and
therefore these efforts will require time and persistence. FMCSA intends to conduct actions on a
continuous basis to address this area.

RECOMMENDATION 7. Implement an internal acquisition quality assurance review
program to ensure Federal and departmental regulations are met throughout the contract
cycle.

Response: CONCUR. The OAM will issue SOPs on Acquisition Quality Assurance by
December 2010. FMCSA will also utilize the OAM Policy Team, beginning in FY 2011, to
perform random quality assurance reviews on contract files to ensure that they are in accordance
with Federal regulations. The OAM has already begun utilizing the Policy Team to review
procurement actions over the $500K threshold as part of its acquisitions review process.

RECOMMENDATION 8. Improve FMCSA’s contract administration and oversight by
revising FMCSA Order 4200.2, COTR Requirements to require the use of a systematic
monitoring/contract administration plan.

Response: CONCUR. FMCSA will update FMCSA Order 4200.2 by October 2011. The Order
will be widely distributed throughout the Agency and will be available on FMCSA’s SharePoint
site.

RECOMMENDATION 9. Improve FMCSA’s contract administration and oversight by
revising FMCSA Order 4200.2, COTR Requirements to require the use of a risk-based
approach for monitoring contracts to assist in identifying high risk contracts warranting
additional oversight.




Appendix. Agency Comments
                                                                                     31


Response: CONCUR. FMCSA will update FMCSA Order 4200.2 by October 2011. The Order
will be widely distributed throughout the Agency and will be available on FMCSA’s SharePoint
site.

-- -- -- --

FMCSA appreciates the opportunity to review the OIG’s draft report and the extensive and
detailed efforts of the OIG over the past two years. FMCSA has already put these efforts to good
use and will continue to rely upon the OIG findings as we continue our efforts. Please contact
Pamela Pelcovits, Director, Office of Policy, Rules and Regulations, at 202-366-4024 or by
email at Pamela.Pelcovits@dot.gov, if there are any questions or if we may be of further
assistance.




Appendix. Agency Comments
